Review of Medicare Payments for Beneficiaries with Institutional Status - Kansas City Market-Humana Health Plan, Kansas City, Missouri, A-05-01-00071
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries with Institutional Status
- Kansas City Market-Humana Health Plan, Kansas City, Missouri" (A-05-01-00071)
December 6, 2001
Complete
Text of Report is available in PDF format (235kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of
our audit entitled, "Review of Medicare Payments for Beneficiaries with
Institutional Status."  Our objective was to determine if payments
to Humana Health Plan (Contract H2649) were appropriate for beneficiaries
reported as institutionalized. We determined that Humana received Medicare
overpayments totaling $84,808 for 27 beneficiaries incorrectly classified
as institutionalized during the period January 1, 1998 through December 31,
2000.  Most of these beneficiaries were residents of domiciliary type
facilities that do not qualify a beneficiary for institutional status.  Humana
should not have received payment at the enhanced institutional rate.